No. 20-256
IN THE

fpuprente Court of the Ettitert iktoted
ZAVIAN MUNIZE JORDAN,
Petitioner,
v.

UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,972 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 23, 2020.

e.
Colin Casey ogan
Wilson-Epes Printing Co., Inc.

